WAIVER
Supreme Court of the United States
No. 19-1192
Missouri, ex rel. Key Insurance Company v. Marco A. Roldan, Judge, Circuit Court of
Missouri, Jackson County, et al.
(Petitioner)
(Respondents)
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
10

Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

a

I am a member of the Bar of the ,Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
SI

Signature

-

Date: 04/20/2020
(Type or print) Name Tom Hershewe

mr.

Ms.

o Mrs.

0 Miss

Firm Dollar, Burns & Becker
Address 1100 Main Street, Suite 2600
City & State Kansas City, Missouri

Zip 64105

Phone (816) 876-2600
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Mr. James Patrick Maloney
Foland, Wickens, Roper, Hofer & Crawford
jmaloney@fwpclaw.com

RECEIVED
APR 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the -docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

